TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Focusing Management Efforts on Long-Term
                 Project Needs Will Help Development of the
                   Customer Account Data Engine Project



                                             June 2006

                              Reference Number: 2006-20-076




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 28, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Focusing Management Efforts on Long-Term
                              Project Needs Will Help Development of the Customer Account Data
                              Engine Project (Audit # 200520012)

 This report presents the results of our review of the Customer Account Data Engine (CADE)
 project management and deployment activities. The overall objective of this review was to
 determine whether the CADE project management and development activities were effective in
 assuring CADE releases1 included all planned capabilities and were implemented within cost and
 schedule estimates. This review was part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2005 Information Systems Programs audit plan for reviews of the
 Internal Revenue Service’s (IRS) modernization efforts.

 Synopsis
 The CADE project is the foundation for managing taxpayer accounts in the IRS modernization
 plan. It consists of databases and related applications that will replace the IRS’ existing Master
 File processing systems. The Master Files are the IRS’ central and official repository of taxpayer
 information.
 In August 2004, the IRS delivered CADE Release 1.1, which successfully processed refund and
 even-balance Forms 1040EZ2 for single taxpayers with no pending tax issues. CADE
 Release 1.2 started processing tax returns in January 2005. In January 2006, the IRS and the



 1
  A release is a specific edition of software.
 2
  Form 1040EZ is the Income Tax Return for Single and Joint Filers With No Dependents. The initial release of the
 CADE does not process Forms 1040EZ for joint filers.
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project


PRIME contractor3 successfully delivered the newest release          While the current release of
of the CADE (Release 1.3.2) in time for the                         the CADE is performing well,
2006 Filing Season.4 Release 1.3.2 targeted a larger                 significant challenges await
taxpayer population by including U.S. Individual Income                the next release (CADE
Tax Returns (Forms 1040 and 1040A) with no schedules,              Release   2), which plans to add
                                                                      several new tax forms and
improving address change capabilities, and including                          schedules.
last-minute 2006 Filing Season tax law changes. As of
February 24, 2006, the CADE had processed over
2.7 million tax returns and generated over $1.4 billion in tax refunds, compared to the 1.4 million
tax returns processed that generated $427 million tax refunds in of all of 2005. Although the
CADE has experienced cost and schedule overruns in the past, the 2006 Filing Season goals
were substantially met.
While the above results are commendable, the IRS has had to reduce the number of tax returns it
planned to process during the 2006 Filing Season. The IRS and the PRIME contractor agreed to
defer eight Release 1.3.2 requirements to help ensure the CADE would process tax returns in
time for the 2006 Filing Season. This occurred because the PRIME contractor did not effectively
and efficiently use computer language (coding practices). Also, the PRIME contractor’s unit
testing5 did not adequately identify programming defects.
The CADE’s design for managing taxpayer accounts is not fully developed to provide a
foundation for the IRS’ current and planned modernized systems. In April 2005, the Business
Systems Modernization Office (BSMO) initiated the CADE Data Architecture and Analysis
Study to enable the project team to adopt a flexible release strategy by establishing a long-term
plan to organize and manage CADE project data. Also, the Modernization and Information
Technology Services organization is forming the Modernization Vision and Strategy to establish
project development priorities with the IRS business operations. The Modernization Vision and
Strategy will provide a 5-year plan for developing modernization projects and processes. Until
these efforts are completed, successful deployment of a long-term CADE release strategy cannot
move forward, and the future releases may not be deployed when planned.
Adequate procedures were not in place to ensure all CADE release requirements are timely
controlled. As of February 23, 2006, an interim process to control CADE Release 2
requirements was in development. The BSMO will use this process until a vendor able to
develop a repository meeting the IRS’ needs is identified.



3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
4
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
5
  Unit testing ensures program modules perform in accordance with requirements.
                                                                                                                      2
                               Focusing Management Efforts on
                     Long-Term Project Needs Will Help Development of the
                            Customer Account Data Engine Project


The BSMO implemented contracting guidance on April 30, 2004, entitled “Enabling Fixed-Price
Contracting for Business Systems Modernization Task Orders,” requiring fixed-price contracts
and task orders for Business Systems Modernization acquisition projects at the appropriate life
cycle development phase, unless the Federal Government’s interest is best served by other
contract types. The IRS is not using fixed-price contracts for CADE Release 1.3 development
activities or for Release 2 design work performed by the PRIME contractor.

Recommendations
The Chief Information Officer (CIO) should provide direction to help ensure progress for the
development of current and future CADE releases. The CIO should ensure current and future
CADE contracts provide an assurance to the IRS that the PRIME contractor performed adequate
testing. The CIO should also ensure the CADE Data Architecture and Analysis Study and the
Modernization and Information Technology Services organization’s new Modernization Vision
and Strategy are expeditiously completed, so the CADE project can implement realistic
requirements and development plans. The CIO should timely implement an interim process to
control CADE Release 2 requirements, which are currently in development. Additionally, the
CIO should ensure the BSMO and the IRS’ contracting officers work with the PRIME contractor
to adequately define project requirements enabling implementation of fixed-price contracts.

Response
IRS management agreed with our recommendations. To implement the corrective actions, the
CIO is requiring the PRIME contractor to notify the IRS of the completion of unit testing and
will incorporate this requirement into the IRS’ application testing guidance. The Modernization
and Information Technology Services organization will use CADE data models and the
high-level data warehousing strategy to develop a data access strategy and transition plan for
future CADE release designs. Further, an interim repository has been developed within the
CADE to track and control requirements until the implementation of the planned Enterprise
Services repository. Finally, the Applications Development organization, the Enterprise Services
organization, and the Office of Procurement will work to position the IRS with the ability to
award fixed-price contracts. However, after full review, negotiations, and consideration, the IRS
made a business decision to continue with the cost-plus-award-fee contract rather than a fixed-
price contract for CADE Release 2. Management’s complete response to the draft report is
included as Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs),
at (202) 622-8510.

                                                                                               3
                                       Focusing Management Efforts on
                             Long-Term Project Needs Will Help Development of the
                                    Customer Account Data Engine Project




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Customer Account Data Engine Project Is Making Progress................Page 3
          The PRIME Contractor’s Inadequate Testing Resulted in Reduced
          Capabilities for Customer Account Data Engine Release 1.3 ......................Page 5
                    Recommendation 1:........................................................Page 7

          Successful Development of the Customer Account Data Engine Is
          Dependent Upon Its Ability to Serve As an Efficient and Effective
          Foundation for Modernized Systems and Applications................................Page 8
                    Recommendation 2:........................................................Page 11

          Controls to Manage Customer Account Data Engine Requirements
          Do Not Allow Ready Access for Project Team Use.....................................Page 11
                    Recommendation 3:........................................................Page 12

          Defining Customer Account Data Engine Project Release
          Requirements Will Help Enable the Use of Fixed-Price Contracts..............Page 12
                    Recommendation 4:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Customer Account Data Engine Release Schedules............Page 18
          Appendix V – Customer Account Data Engine Project Costs......................Page 22
          Appendix VI – Business Systems Modernization Challenge Issues
          Relating to the Customer Account Data Engine ...........................................Page 24
                            Focusing Management Efforts on
                  Long-Term Project Needs Will Help Development of the
                         Customer Account Data Engine Project



Appendix VII – Customer Account Data Engine Corrective Actions
to Prior Recommendations............................................................................Page 27
Appendix VIII – Enterprise Life Cycle Overview........................................Page 36
Appendix IX– Management’s Response to the Draft Report .......................Page 40
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project




                                           Background

The Customer Account Data Engine (CADE) project is the foundation for managing taxpayer
accounts in the Internal Revenue Service (IRS) modernization plan. It consists of databases and
related applications that will replace the IRS’ existing Master File processing systems. The
Master Files are the IRS’ central and official repository of taxpayer information.
The IRS initiated the CADE project in September 1999. CADE Release 11 was initially planned
for delivery in January 2002. The IRS and the PRIME contractor2 postponed the planned
delivery date of Release 1 several times. Setbacks occurred for several reasons, including
IRS/PRIME contractor role confusion, noncompliance with management processes, and the
absence of consistent, well-understood requirements. Appendix IV, Table 1, provides a timeline
of the adjustments made to the content and planned delivery dates for the CADE release
schedule.
In August 2004, the IRS delivered CADE Release 1.1, which successfully processed refund and
even-balance Forms 1040EZ3 for single taxpayers with no pending tax issues. CADE
Release 1.2 started processing tax returns in January 2005. From January 1 through
December 31, 2005, the CADE processed over 1.4 million tax returns and issued 927,044 paper
and 478,120 electronic tax return refunds totaling over $427 million.
The IRS and the PRIME contractor created the CADE Joint
Engineering Team consisting of business architects and                        The Joint Engineering Team was
engineers. In the fall of 2004, the Joint Engineering Team                       tasked to confirm the CADE
recommended the formation of the CADE Data Architecture                         architecture and design were
and Analysis Study to establish a data architecture foundation                    correctly implemented and
that would enable the project to adopt a flexible release strategy            tested throughout the life cycle.
for current and future CADE releases. The study began in
April 2005 and is on track for completion in June 2006.
Each year the IRS presents to Congress an expenditure plan containing the best estimates
regarding the current scope, schedule, and cost of the Business Systems Modernization (BSM)
program. It introduces key activities for the upcoming fiscal year and incorporates the most
current information concerning the status of the modernization projects. The expenditure plan

1
  A release is a specific edition of software.
2
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
3
  Form 1040EZ is the Income Tax Return for Single and Joint Filers With No Dependents. The initial Release of the
CADE does not process Forms 1040EZ for joint filers.
                                                                                                         Page 1
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project



details the successes from prior years and discusses the key activities and steps the Business
Systems Modernization Office (BSMO) is taking to strengthen and improve the efficiencies and
effectiveness of its program.
After reviewing the IRS’ scope, schedule, and cost estimates contained in the latest BSM 2005
and 2006 Expenditure Plans, Congress authorized $54 million in 2005 and $60 million in 2006
for the CADE. Additionally, the IRS requested $85 million in 2007 for the CADE, but this
amount has been reduced to about $58 million. Through October 27, 2005, the IRS had
obligated $134,168,206 for the design, development, and implementation of the CADE, with an
estimated $252.1 million planned to be spent through 2007. Appendix V presents an analysis of
the CADE project release costs.
This review is the fifth in a series of reviews related to the CADE project activities and was
performed at the BSMO facilities in New Carrollton, Maryland, during the period August 2005
through February 2006. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II. Appendix VIII presents
an overview of the Enterprise Life Cycle (ELC).4




4
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that reduce
the risks of systems development and ensure alignment with the overall business strategy.
                                                                                                            Page 2
                                      Focusing Management Efforts on
                            Long-Term Project Needs Will Help Development of the
                                   Customer Account Data Engine Project




                                         Results of Review

The Customer Account Data Engine Project Is Making Progress
While the CADE project has experienced a series of setbacks
and postponements since its beginning in September 1999, the
                                                                                      Areas of improvement
project is making progress. Specifically, program-level and                        continue to be identified and
project-level areas of improvement continue to be identified and                   actively addressed by CADE
actively addressed by project management. The latest version                           project management.
of the CADE (Release 1.3.2) successfully went into production
in time for the 2006 Filing Season.5

Actions to address business challenges were beneficial to the CADE project
In 2003, the IRS launched a comprehensive review consisting of three studies and a
benchmarking analysis of the BSM program. In addition, the PRIME contractor launched an
internal study. The studies confirmed the IRS modernization effort is a massive, highly
complex, high-risk program confronted by a number of critical management and technological
challenges. To address the various assessments, the IRS developed 48 business challenges for
itself and the PRIME contractor to complete. The BSM Challenges Plan Close-Out Report,
dated May 1, 2004, provided plans for improved future CADE project development.
We followed up on the 10 business challenges related to the CADE project and determined that
each had been adequately addressed. For example, the Joint Engineering Team, which
recommended the formation of the CADE Data Architecture and Analysis Study, is a direct
result of addressing an identified business challenge. Other actions to address business
challenges included hiring critical engineering talent and hiring an overall CADE director.
Appendix VI presents descriptions of the 10 business challenges related to the CADE project.

CADE management took corrective actions to prior Treasury Inspector General
for Tax Administration recommendations
We followed up on the status of corrective actions taken in response to 13 prior
recommendations we made related to the CADE project and determined only 3 corrective actions
remained open. BSMO management implemented or has scheduled corrective action
implementation to address all issues. Appendix VII presents an analysis of the corrective actions
to our recommendations.


5
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                              Page 3
                               Focusing Management Efforts on
                     Long-Term Project Needs Will Help Development of the
                            Customer Account Data Engine Project



The IRS and PRIME contractor identified lessons learned to improve future
project development activities
In October 2005, the PRIME contractor issued the IRS a lessons-learned workshop report
outlining processes that worked well and processes needing improvement during the CADE
project’s 2005 development and testing activities. The lessons-learned workshop report was a
joint effort between the IRS and the PRIME contractor.
The report identified 14 processes that worked well and 42 processes that needed improvement.
Items that worked well included aspects of configuration management, transition management,
release development, and combined systems integration testing. Areas that needed improvement
also focused on aspects of configuration management and testing, as well as estimating and
scheduling the assigned workforce, developing computer operating handbooks, improving
communication between architectural design and engineering groups, and improving project
schedule management. Several items specifically address our prior recommendations, which are
discussed later in this report.

CADE Release 1.3 went into production in time for the 2006 Filing Season
Beginning with the development of CADE Release 1.3, the IRS and the PRIME contractor
planned to use a biannual release approach - one release delivery in June and one release delivery
in January. Appendix IV, Table 2, presents the revised CADE biannual release schedule
including return types, account characteristics, and estimated tax return volumes for each release.
The first biannual release (Release 1.3.1) was delivered in September 2005. Release 1.3.1
processed Form 1040EZ tax returns, improved long-term database efficiency, accepted tax
returns from taxpayers who changed addresses between filing seasons, implemented interest rate
changes, and handled initial 2006 Filing Season tax law changes.
In January 2006, the IRS and the PRIME contractor successfully
                                                                            While the current
delivered the second biannual release (Release 1.3.2) in time for the    release of the CADE is
2006 Filing Season. Release 1.3.2 targeted a larger taxpayer              performing very well,
population by including Forms 1040 and 1040A with no schedules,          significant challenges
improving address change capabilities, and including last-minute         await the next release
2006 Filing Season tax law changes. As of February 24, 2006, the           (CADE Release 2),
                                                                           which plans to add
CADE had processed over 2.7 million tax returns and generated            several new tax forms
over $1.4 billion in tax refunds, compared to the 1.4 million tax            and schedules.
returns processed that generated $427 million tax refunds in of all
of 2005.
Although the CADE has experienced cost and schedule overruns in the past, the 2006 Filing
Season goals were substantially met. Appendices IV and V, Table 3, present the CADE project
cost and schedule variances.


                                                                                            Page 4
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



The PRIME Contractor’s Inadequate Testing Resulted in Reduced
Capabilities for Customer Account Data Engine Release 1.3
While the above results are commendable, the IRS has had to reduce the number of tax returns it
plans to process in 2006. The latest approved CADE Capital Asset and Business Case
Exhibit 3006 (dated February 2005) estimated Release 1.3.2 would identify 20 million tax returns
with characteristics for CADE processing. However, after reconsidering the original projection,
the deferral of 8 planned requirements, and the addition of unexpected disaster-related
requirements, Release 1.3.2 identified fewer than 14 million tax returns for potential CADE
processing. In October 2005, the BSMO estimated that only 4 million of the 14 million tax
returns having CADE processing potential would be processed by the CADE. This reduction is
due to account activity which the current CADE Release cannot process. Had Release 1.3.2
realized the 20 million tax returns envisioned in the Capital Asset and Business Case
Exhibit 300, even more taxpayers would have received CADE benefits such as faster refunds.
On October 27, 2005, the IRS and the PRIME contractor renegotiated the Release 1.3.2 task
order and deferred eight requirements to future CADE releases. The task order modification
contained a cost adjustment reduction of almost $3.2 million to account for the removal of the
eight requirements. The deferred requirements involved the following capabilities:
    •   Processing tax returns for taxpayers affected by designated disasters.
    •   Processing prior year tax returns.
    •   Processing offsets to tax overpayments.
    •   Processing requests for extensions to file tax returns.
    •   Processing tax returns with errors.
    •   Processing refund suspensions for tax returns meeting Criminal Investigation fraud
        criteria.
    •   Processing direct-deposit refunds for tax returns filed on paper versus electronically.
    •   Processing improvements for manual refunds.
The IRS and the PRIME contractor agreed to defer the eight Release 1.3.2 requirements to help
ensure the CADE would be operational in time for the 2006 Filing Season. Several factors
contributed to the removal of the eight requirements from Release 1.3.2.



6
 The Office of Management and Budget Circular A-11 Exhibit 300, Capital Asset Plan and Business Case, dated
June 2002, documents business cases used by agencies to request funds, monitor the progress of projects, and
improve management decision making over expensive information technology investments.
                                                                                                       Page 5
                                    Focusing Management Efforts on
                          Long-Term Project Needs Will Help Development of the
                                 Customer Account Data Engine Project



During development of CADE Release 1.3.1, the PRIME
                                                                                   The Internal Revenue Manual
contractor did not effectively and efficiently use computer                             and the ELC provide
language (coding practices) and the contractor’s unit testing7 did                 guidance for developing and
not adequately identify programming defects. This is evidenced                          documenting project
by the Release 1.3.1 Combined Systems Integration Testing8                          requirements and computer
which experienced a high number of failed tests. Between June                        program applications. The
                                                                                      Internal Revenue Manual
and August 2005, the defect rate averaged over 20 percent.                           also provides guidance to
MITRE9 provided information on defect rates to measure                               plan, execute, and develop
productivity improvements claimed by the PRIME contractor                            several forms of computer
during Release 1.3.2. MITRE’s research on defect rates                               program testing, including
reinforced its observations that the PRIME contractor’s                               unit testing and systems
                                                                                         acceptance testing.
productivity is well below industry standards. Subsequently,
the PRIME contractor did not have adequate staffing to fix the
Release 1.3.1 defects, requiring the transfer of designers and
developers from Release 1.3.2 startup activities.
The PRIME contractor assessed its performance in developing CADE Release 1.3.1 and
compiled lessons learned from its experience. The PRIME contractor’s lessons-learned report
contained the following recommendations that we had previously reported:
    •    Computer operations handbooks need more detail.
    •    Job Control Language10 programming needs to be more efficient.
    •    The schedule estimation approach needs to be enhanced.
Because of the problems experienced in development, Release 1.3.1 was delivered in
September 2005, 2 months behind schedule. This delay significantly shortened the
Release 1.3.2 project schedule, which was time sensitive to the 2006 Filing Season. Because of
the abbreviated development period available for Release 1.3.2, the eight requirements cited
previously were removed. The IRS did not estimate the number of taxpayers affected in making
its decision to defer the eight requirements to future CADE releases. As a result, an unknown
number of taxpayers will not receive the benefits associated with CADE processing, primarily
faster processing of income tax return refunds. In addition, Release 1.3.2 taxpayer account




7
  Unit testing ensures program modules perform in accordance with requirements.
8
  The Combined Systems Integration Test verifies the quality of the integrated system (i.e., verifies the system is
integrated into other IRS systems properly and functions as required).
9
  MITRE is the IRS’ modernization strategic support contractor.
10
   Job Control Language is a means of communication between the programmer/analyst and the operating system. It
consists of control statements that introduce a job to the operating system, provide accounting information, direct the
operating system, request hardware devices, and execute a job.
                                                                                                              Page 6
                                    Focusing Management Efforts on
                          Long-Term Project Needs Will Help Development of the
                                 Customer Account Data Engine Project



balancing, control, and reconciliation process11 requirements were not finalized until
December 9, 2005. Also, the IRS did not fully develop the requirement to process refund
suspensions meeting Criminal Investigation function fraud criteria in time for inclusion in
Release 1.3.2.
Release 1.3.2 went into operation on January 17, 2006. However, all planned Release 1.3.2
requirements were not deployed initially because of the abbreviated development period. The
remaining CADE release requirements were incrementally deployed as their testing was
completed.
The impact of the application development problems has had a cascading effect. The
CADE Release 2.1 project team has had to compete with the Release 1.3.2 project team for
development resources during startup activities. This shortfall evolved from the resources the
Release 1.3.2 project team had to divert to make Release 1.3.1 operational.

Recommendation
Recommendation 1: The Chief Information Officer should ensure current and future CADE
task order contracts and modifications provide an assurance to the IRS that unit testing was
adequately performed by the PRIME contractor and the application provided is ready for
integration and testing by the IRS. This assurance should take the form of something similar to
an Application Qualification Testing12 report or other deliverable. The requirement for this
assurance should be incorporated into the Modernization and Information Technology Services
(MITS) organization’s testing guidance, which is being revised by the Technology Release
Management office.
         Management’s Response: The IRS agreed with our recommendation. Prior to IRS
         testing, the PRIME contractor will be required to provide the IRS with notification
         regarding the completion of unit testing. The CADE has placed this requirement of
         formal notification regarding the completion of unit testing in the Release 2 task order
         and will do so in future task orders. Further, the MITS organization’s Test Process
         Improvement Working Group of Stakeholders will review existing test guidance and
         make the appropriate modification to ensure that unit testing was adequately performed
         by the PRIME contractor and the application provided to the IRS is ready for integration
         and testing.


11
   The balancing and reconciliation of accumulated and calculated data within the CADE include three major
components: initialization (the transfer of taxpayer account data from existing IRS systems to the modernized
CADE system); daily processing (the editing, processing, and record keeping of all transactions); and weekly
processing (the external and internal balancing of all processing and transactions for the week).
12
   Application Qualification Testing focuses on verifying that business processes are supported as intended by the
application; requirements allocated to the application are met; all tests are defined and executed; and all problems
encountered are documented, corrected, and verified.
                                                                                                               Page 7
                               Focusing Management Efforts on
                     Long-Term Project Needs Will Help Development of the
                            Customer Account Data Engine Project



Successful Development of the Customer Account Data Engine Is
Dependent Upon Its Ability to Serve As an Efficient and Effective
Foundation for Modernized Systems and Applications
The CADE’s design for managing taxpayer accounts is not fully developed to provide a
foundation for the IRS’ current and planned modernized systems. In a November 2002 briefing
to IRS executives, the PRIME contractor stated it had developed the basic infrastructure for
CADE Releases 1 through 5 and that 95 percent of the applications for operating
Release 1 had been built. This declaration may have led to a belief that, while Release 1 was
experiencing difficulties, the underlying design and infrastructure was almost finished.
Since then, the CADE project has developed Releases 1.1 through 1.3.2. However the IRS and
the PRIME contractor have modified the release strategies. Appendix IV, Table 2, presents the
latest release schedules. In April 2005, the BSMO initiated the CADE Data Architecture and
Analysis Study, which should be completed in June 2006. This Study’s overall objective is to
enable the project team to adopt a flexible release strategy by establishing a long-term plan to
organize and manage project data. To successfully deliver future releases, the project team needs
to address the following topics in the CADE Data Architecture and Analysis Study.

The current CADE logical design release strategy supports only the first two
CADE releases
The logical design provides a specific description of the hardware, system software, and network
components comprising the IRS’ systems and applications. The logical design presents a view
of the technology being used, including definitions of workstations, hardware components, and
interfaces with other IRS systems and applications.
The original CADE release strategy was focused on moving ‘easy’ taxpayers onto the CADE in
the early releases and building on this base with more complexity through the later releases.
With this focus, the project’s logical design did not include plans to support the complex tax
returns the CADE would process subsequent to Release 2.
Until a long-term logical design is developed, future releases of the CADE cannot begin
development. Additionally, on February 23, 2006, the project team stated an interim solution for
the Release 2.1 logical application design had not been completed.

The CADE project has not completed its long-term physical design
The physical design describes the IRS’ systems and applications in physical terms. It specifies
vendors, products, models, versions, releases, capacities, connections, and other options for the
planned project. The purpose of the physical design is to guide the construction and ultimate
integration of the IRS’ systems and applications after its logical design is complete.


                                                                                            Page 8
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



Because the logical design is in development and a long-term physical design is dependent on
the logical design’s completion, the CADE project is building an interim physical design. The
interim physical design solution is another area of concern affecting the next CADE Release. As
of February 23, 2006, the interim physical design work for Release 2.1 was several weeks behind
schedule. Until a long-term physical design is developed, testing cannot be performed that will
ensure the adequacy of CADE release development.

The IRS did not use the originally selected data conversion plan because of time
constraints related to acquisition, evaluation, and implementation
The objective of the data conversion is to convert data between the IRS’ current processing
environment formats and the CADE database while minimizing the effect on IRS employees and
customers. Taxpayer account information maintained in the CADE is available to users in the
current processing environment format. Data conversion consists of:
     •   Data mapping – two mappings are required for the CADE: 1) current processing
         environment as the source and the CADE as the target and 2) the CADE as the source
         and current processing environment as the target.
     •   Data analysis/data cleansing – provides a basis for ensuring completeness of CADE data.
     •   Data transformation – copies current processing environment data to the CADE.
     •   Data validation – ensures the transformation of data is correct.
In 2002, we reviewed the IRS’ data conversion plans and reported the plans adequately
documented the process necessary to move taxpayer account data to and from existing IRS
systems and the modernized CADE.13 We cautioned that the key to success was to carefully
track the data conversion progress against the project development plans and timely address any
potential barriers or risks.
The IRS subsequently abandoned the original data conversion plan because of time constraints
related to acquisition, evaluation, and implementation. As a result, a process termed “quick and
dirty” by the IRS was used for the first CADE Release. The data conversion programs for
processing Release 2 taxpayer accounts have not yet been completed.
As part of the CADE Data Architecture and Analysis Study, data conversion recommendations
in May and October 2005 proposed several solutions for the long term (CADE Release 3 and
beyond). A definitive approach is still to be determined. As the CADE project progresses, the
data conversion process will become more complex and riskier with the addition of returns,
schedules, and taxpayers.


13
  Improvements in the Customer Account Data Engine Pilot Plan Need to Be Considered to Help Ensure the Pilot’s
Success (Reference Number 2003-20-018, dated October 2002).
                                                                                                      Page 9
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project



The CADE currently does not store historical financial data
The Office of Management and Budget prescribes14 policies and standards for executive
departments and agencies to follow when developing, operating, evaluating, and reporting on
financial management systems. Several years ago, the IRS initiated a change request to
eliminate the requirement to store historical financial data in the CADE for Release 1. The
change request cited overall complexity, and the Release 1 capabilities did not require the
storage of financial history. This capability was deferred because financial information for tax
returns processed by CADE Release 1 is captured in the current processing environment.
For the 2007 Filing Season, several Form 1040 schedules will be added to CADE Release 2
requiring the storage of historical data. Examples include Interest and Ordinary Dividends
(Schedule B), Profit or Loss From Business (Schedule C), Supplemental Income and Loss
(Schedule E), and Profit or Loss From Farming (Schedule F).
The CADE Data Architecture and Analysis Study team is examining the use of the Custodial
Accounting Project15 information as a means of populating the CADE’s historical financial
database. The historical data conversion will be a significant undertaking for the CADE if the
financial information for tax returns in the current processing environment needs to be
completely rewritten.

The CADE Data Architecture and Analysis Study is integral to the IRS’ future
modernization plans
The MITS organization is analyzing the progress of the BSM program and reconsidering the
approach to the program’s architecture and development. To provide a better focus, the MITS
organization is forming the Modernization Vision and Strategy to establish project development
priorities with the IRS business operations. The Modernization Vision and Strategy will provide
a 5-year plan for developing modernization projects and processes.
The CADE project is integral to the future plans for modernization, and the recommendations
resulting from the CADE Data Architecture and Analysis Study will help determine the future
plans for developing the CADE project. Until the issues cited previously are resolved, successful
deployment of a long-term CADE release strategy cannot move forward, and the future releases
may not be deployed when planned. For the near term, the risk of untimely implementation of
CADE Release 2 is significantly affected by unresolved solutions around the project’s logical
and physical designs, the data conversion plans, and the storage of financial information.




14
  Office of Management and Budget Circular A-127, Financial Management Systems, dated July 1993.
15
  The Custodial Accounting Project uses a data-warehousing approach for storing, analyzing, and reporting
taxpayer accounts and collection information.
                                                                                                        Page 10
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



Recommendation
Recommendation 2: The Chief Information Officer should ensure the CADE Data
Architecture and Analysis Study and the MITS organization’s new Modernization Vision and
Strategy are expeditiously completed, so the CADE project can implement realistic requirements
and development plans.
          Management’s Response: The IRS agreed with our recommendation. The MITS
          organization will use the CADE Data Study results as the basis for developing data
          models to guide designs for CADE Releases 3 and 4. The MITS organization will also
          review Modernization and Vision project strategies for extracting operational and
          analytical data to develop a high-level strategy for data warehousing. Building upon the
          CADE data models and the high-level data warehousing strategy, the MITS organization
          will form a data access strategy and transition plan.

Controls to Manage Customer Account Data Engine Requirements Do
Not Allow Ready Access for Project Team Use
The ELC’s BSMO Process Description for requirements
development and management designates the Acquisition
Project Manager as responsible for ensuring project                  The GAO Standards state
requirements are defined, testable, and traceable. The                transactions should be
                                                                       promptly recorded to
requirements for CADE Releases 1.1 and 1.2 are contained in        maintain their relevance and
the System Requirements Reports, which were updated to                value to management in
reflect changes as they occurred. For CADE Release 1.3, the         controlling operations and
IRS and the PRIME contractor agreed to create separate                   making decisions.
documents called “White Papers” to document development of
each specific requirement. This process change was made to
ensure a better understanding of the performance needed to meet the project requirements and to
minimize rework during testing.
Adequate procedures were not in place to ensure all CADE release requirements are timely
controlled. The project team uses the Document Management System as a database to control
the White Papers. When we requested a complete listing of Release 1.3 requirements, the project
team was unable to timely provide the information. The project team and the PRIME contractor
needed over 3 months to assemble and provide us all information relating to the population of
White Papers.
The Government Accountability Office (GAO) Standards for Internal Control in the Federal
Government16 state control activities occur at all levels and functions of the entity and include the

16
     GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                             Page 11
                                    Focusing Management Efforts on
                          Long-Term Project Needs Will Help Development of the
                                 Customer Account Data Engine Project



creation and maintenance of related records that provide evidence of execution of these activities
as well as appropriate documentation. Because CADE Release 1.3 requirements are not readily
available for project team use, the IRS cannot easily determine whether all agreed-to
requirements were developed and tested.
BSMO management stated Release 2 will not use White Papers to document specific
requirements, as was the case in Release 1.3. As of February 23, 2006, an interim process to
control Release 2 requirements was in development. The BSMO will use this process until a
vendor able to develop a repository meeting the IRS’ needs is identified. Once implemented, the
new repository will be managed by the MITS organization Requirements Management Office.

Recommendation
Recommendation 3: Until a new repository is identified and built to control future CADE
release requirements, the Chief Information Officer should timely implement an interim process
that will effectively and efficiently control CADE Release 2 requirements, which are currently in
development.
         Management’s Response: The IRS agreed with our recommendation. As an interim
         measure, a project repository has been developed within the CADE to track and control
         requirements for each release. This vehicle will remain in place until the implementation
         of the planned Enterprise Services organization’s repository is completed.

Defining Customer Account Data Engine Project Release
Requirements Will Help Enable the Use of Fixed-Price Contracts
The IRS is not using fixed-price contracts for CADE Release 1.3 development or for Release 2
design work performed by the PRIME contractor. Both releases are using hybrid
cost-plus-fixed-fee,17 cost-plus-incentive-fee,18 and cost-plus-award-fee contracts.19
The BSMO implemented contracting guidance on April 30, 2004, entitled “Enabling Fixed-Price
Contracting for Business Systems Modernization Task Orders,” that requires fixed-price


17
   A cost-plus-fixed-fee contract is a cost-reimbursement contract that provides for payment to the contractor of a
negotiated fee that is fixed at the inception of the contract. The fixed fee does not vary with actual cost but may be
adjusted as a result of changes in the work to be performed under the contract. This contract type permits
contracting for efforts that might otherwise present too great a risk to contractors, but it provides the contractor only
a minimum incentive to control costs.
18
   A cost-plus-incentive-fee contract is a cost-reimbursement contract that provides for an initially negotiated fee to
be adjusted later by a formula based on the relationship of total allowable costs to total target costs.
19
   A cost-plus-award-fee contract is a cost-reimbursement contract that provides for a fee consisting of (a) a base
amount (which may be zero) fixed at inception of the contract and (b) an award amount, based upon a judgmental
evaluation by the Federal Government, sufficient to provide motivation for excellence in contract performance.
                                                                                                                Page 12
                               Focusing Management Efforts on
                     Long-Term Project Needs Will Help Development of the
                            Customer Account Data Engine Project



contracts and task orders for BSM acquisition projects at the appropriate life cycle development
phase, unless the Federal Government’s interest is best served by other contract types. The ELC
established Milestone 4 as the business systems development and enterprise deployment decision
point. The Milestone 4 activities are separated by two checkpoints. Activities leading up to
Milestone 4A involve further requirements definition, development of the system’s physical
design, and determination of the applicability of fixed-price contracting to complete system
development and deployment. Once the requirements are finalized and agreed to by the IRS and
the PRIME contractor, a fixed-price contract can be used to achieve Milestone 4B.
The BSMO’s guidance acknowledges that fixed-price contracts are used when the risk involved
can be predicted with acceptable certainty. A fixed-price contract is suitable for acquiring
supplies or services on the basis of “reasonably definite functional or detailed specifications”
when the contracting officer can establish fair and reasonable prices at the outset, performance
uncertainties can be identified and reasonable estimates of their cost impact can be made, and the
contractor is willing to accept a fixed price representing assumption of the risks involved.
The IRS recognized the following challenges in working with the PRIME contractor to use
fixed-price contracts when they reach Milestone 4B:
   •   The IRS and the PRIME contractor need to reach agreement on the amount of effort
       necessary to complete each specific CADE release.
   •   The IRS needs to get the PRIME contractor to commit to fixed-price contracts close to
       the IRS’ estimates.
   •   The IRS needs to respond to additional unanticipated application requirements from new
       tax law changes and other special provisions (e.g., modified filing requirements for
       disaster victims).
   •   The IRS needs to overcome funding contingency restrictions. The BSM Program
       Management Office retains some CADE funds as a contingency to cover funding
       shortfalls in other modernization projects. Committing CADE funds to a
       fixed-price contract will make contingency funding difficult.
The use of fixed-price contracts should lead to more cost-effective acquisitions, better value, and
greater competition. Fixed-price contracts have the net effect of shifting some of the manageable
performance risk from the IRS to the contractors. When the contractor does not bear enough risk
under a task order, the contractor does not have an incentive to perform well. Contractors will be
given more latitude for determining methods of performance, with more responsibility for
performance quality. The IRS should experience fewer cost overruns, schedule delays, and
performance problems. These benefits of fixed-price contracting will be realized only when the
CADE project requirements are fully developed and agreed to, comprehensive estimates of effort
to perform the contract tasks are made, and meaningful negotiations are held.


                                                                                           Page 13
                               Focusing Management Efforts on
                     Long-Term Project Needs Will Help Development of the
                            Customer Account Data Engine Project



Recommendation
Recommendation 4: The Chief Information Officer should ensure the BSMO, the Enterprise
Services organization’s Business Rules and Requirements Management office, and the IRS’
contracting officers work with the PRIME contractor to adequately define project requirements
enabling implementation of fixed-price contracts when project development reaches
Milestone 4B. Hybrid fixed-price contracts incorporating cost-plus provisions should be used
only to contract the development of additional unanticipated requirements, such as new tax law
changes. Additionally, the BSMO and the IRS’ contracting officers should reevaluate the
benefits of using a fixed-price contract, if possible, for the remaining work (Milestone 4B) on
CADE Release 2.
       Management’s Response: The IRS agreed with this recommendation. The
       Acquisition Development organization, the Enterprise Services organization, and the
       Office of Procurement will work to position the IRS with the ability to award fixed-price
       contracts. CADE project personnel, in conjunction with the IRS contracting officers,
       reevaluated the benefits of using a fixed-price contract for the remaining work on
       Release 2. After full review, negotiations, and consideration, the IRS made a business
       decision to continue with the cost-plus-award-fee contract.




                                                                                         Page 14
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Customer Account Data
Engine (CADE) project management and development activities were effective in assuring
CADE releases1 included all planned capabilities and were implemented within cost and
schedule estimates. This review was part of our Fiscal Year 2005 audit plan for reviews of the
Internal Revenue Service’s Business Systems Modernization (BSM) efforts.
To accomplish our objective, we reviewed available documentation and interviewed
Business Systems Modernization Office (BSMO) personnel and Modernization Acquisition
function analysts from the Agency-Wide Shared Services organization. Specifically, we:
I.      Assessed the activities of the BSMO and the PRIME contractor2 to deliver all agreed-to
        requirements for CADE Releases 1.3 and 2.
        A. Interviewed BSMO staff to determine the final requirements the PRIME contractor
           delivered for CADE Releases 1.3.1 and 1.3.2.
        B. Interviewed BSMO staff to determine the effect the month-by-month funding process
           had on CADE Releases 1.3.1 and 1.3.2.
        C. Interviewed BSMO staff to determine the status of the testing schedule activities
           related to CADE Releases 1.3.1 and 1.3.2.
        D. Reviewed CADE Release 2 planning activities to determine whether the BSMO and
           the PRIME contractor were on track to successfully deliver additional CADE
           taxpayer benefits.
        E. Monitored BSMO and PRIME contractor actions related to the CADE Data
           Architecture and Analysis Study to determine the effect, if any, on CADE
           Releases 1.3.1, 1.3.2, and 2 activities.
II.     Determined whether the actions taken to address the BSM Challenge Issues have
        improved the management of the CADE project to successfully move forward.
III.    Followed up on the status of corrective actions taken in response to prior Treasury
        Inspector General for Tax Administration audit report recommendations.

1
 A release is a specific edition of software.
2
 The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the Internal Revenue Service’s efforts to modernize its computer systems
and related information technology.
                                                                                                          Page 15
                              Focusing Management Efforts on
                    Long-Term Project Needs Will Help Development of the
                           Customer Account Data Engine Project



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Phung-Son Nguyen, Senior Auditor
Bruce Polidori, Senior Auditor
Steven Gibson, Auditor
Kim McManis, Auditor




                                                                                     Page 16
                             Focusing Management Efforts on
                   Long-Term Project Needs Will Help Development of the
                          Customer Account Data Engine Project



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:B
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 17
                                                               Focusing Management Efforts on
                                                     Long-Term Project Needs Will Help Development of the
                                                            Customer Account Data Engine Project



                                                                                                                                  Appendix IV

                   Customer Account Data Engine Release Schedules

Table 1 presents the historical development of the Customer Account Data Engine (CADE) and
the original CADE release schedule. The names of the tax forms planned for CADE processing
are presented below Table 1. All tax forms and schedules listed in Tables 1 and 2 are available
at the Internal Revenue Service (IRS) web site (IRS.gov).
                                                         Table 1: Original CADE Release Schedule
                                     RELEASE         RELEASE        RELEASE         RELEASE         RELEASE         RELEASE        RELEASE         RELEASE
                                      1.1/1.2          1.3.1          1.3.2           2.1             2.2              3              4               5

                                     Form            Release        Release 1.3.1   Form           Release 2.1      All Form      All Form 1040    All remaining
                                     1040EZ;         1.1/1.2 plus   plus            1040EZ;        plus             1040 family   family and       individual tax
                                     Single filing   address        Forms 1040      Form 1040      Form 1040        and           supporting       returns
                                     status;         change         and 1040A       Schedules A,   Schedules C,     supporting    forms with an
                                     refund or                      with no         B, and R;      D, E, F, and H   forms         EIN;
                                     even-balance                   schedules;      Form 1040A     without an       without an    Forms 941,
Tax Return Types




                                     returns                        Forms 4868      Schedules 1    Employer         EIN;          940, and 720;
                                                                    and 2688;       and 3          Identification   Form 1040A    payroll,
                                                                    prior year                     Number (EIN)     Schedule 2;   unemployment,
                                                                    returns                        and their        refund,       and excise
                                                                    (2003+);                       supporting       deceased      returns for
                                                                    limited                        schedules        refund, or    Form 1040
                                                                    name-change                                     fully paid    taxpayers;
                                                                    returns                                         returns       refund, fully
                                                                                                                                  paid,
                                                                                                                                  balance-due,
                                                                                                                                  and
                                                                                                                                  even-balance
                                                                                                                                  returns
                                     Single          Single         Single          Single;        Single;          All           All              All
                                                                                    Married;       Married; Head    (including
Status
Filing




                                                                                    Head of        of Household,    Head of
                                                                                    Household,     limited          Household)
                                                                                    limited        dependents
                                                                                    dependents
                                     No account      No account     No account      No account     Married once;    No open       Power of         All accounts
                   Characteristics




                                     issues (open    issues (open   issues (open    issues (open   no open          account       Attorney;        not included
Account




                                     or closed)      or closed)     or closed)      or closed)     account issues   issues;       Centralized      in previous
                                                                                                                    Earned        Authorization    Releases
                                                                                                                    Income Tax         1
                                                                                                                                  File; no open
                                                                                                                    Credit        account issues
                                                                                                                    (EITC)




1
  The Centralized Authorization File contains information about the type of authorizations taxpayers have given
their representatives for their tax returns.
                                                                                                                                              Page 18
                                         Focusing Management Efforts on
                               Long-Term Project Needs Will Help Development of the
                                      Customer Account Data Engine Project



                RELEASE         RELEASE      RELEASE        RELEASE       RELEASE        RELEASE        RELEASE         RELEASE
                 1.1/1.2          1.3.1        1.3.2          2.1           2.2             3              4               5

Number of
 Returns
 Original         3 million                                                35 Million     76 Million    110 Million     122 Million
 estimate
 Revised
Estimate -        2 million      2 million     To Be           TBD         33 million     50 Million    80 Million      140 Million
                                             Determined
February                                       (TBD)
   2005

Estimated
 Delivery:
As of April     January 2002                                August 2002                   July 2003     July 2004        July 2005
   2000
   As of
 January        August 2004                  January 2006      TBD           TBD             TBD           TBD             TBD
   2004
  As of
December        August 2004      July 2005   January 2006    July 2006    January 2007       TBD           TBD             TBD
  2004
  As of
February           August        July 2005   January 2006    July 2006    January 2007     Releases      Releases        July 2009
  2005             2004/                                                                    3.1/3.2       4.1/4.2
                January 2005                                                              July 2007/    July 2008/
                                                                                         January 2008    January
                                                                                                           2009
Source: CADE Individual Master File2 Release Content Master Plan Update, dated June 5, 2003.

Form 720 – Quarterly Federal Excise Tax Return.
Form 940 – Employer’s Annual Federal Unemployment (FUTA) Return.
Form 941 – Employer’s QUARTERLY Federal Tax Return.
Form 1040 – U.S. Individual Income Tax Return.
Form 1040A – U.S. Individual Income Tax Return.
Form 1040EZ – Income Tax Return for Single and Joint Filers With No Dependents.
Form 2688 – Application for Additional Extension of Time to File U.S. Individual Income Tax
Return.
Form 4868 – Application for Automatic Extension of Time to File U.S. Individual Income Tax
Return.




2
    The Master Files are the IRS’ central and official repository of taxpayer information.

                                                                                                                      Page 19
                                              Focusing Management Efforts on
                                    Long-Term Project Needs Will Help Development of the
                                           Customer Account Data Engine Project



Table 2 presents the current CADE release schedule. The names of additional tax forms planned
for CADE processing are presented below Table 2.
                                  Table 2: Revised Biannual CADE Release Schedule
                       2004             2005           2006            2007            2008             2009                2010          2011/2012
                   RELEASE          RELEASE        RELEASE         RELEASE         RELEASE          RELEASE            RELEASE           RELEASE
January              1.1               1.2           1.3.2           2.2             3.2              4.2                5.2                6.2
and                                   1.3.1           2.1            3.1             4.1              5.1                6.1              7.1/7.2
June
                   Form 1040EZ      1.2 & 1.3.1    1.3.2           2.2             3.2             4.2                5.2                6.2
                                    Form 1040EZ    Forms 1040      Form 1040A      Form 1040       Balance-due        Form 1040          Additional
                                                   and 1040A no    Schedules 1     decedent        returns; math      Schedules C, E,    Form 1040
                                    (1.3.1 only)   schedules       and 3;          returns;        error returns;     F with an EIN      schedules and
                                    Address                        Form 1040       Form 1040       Form 6251;         and supporting     forms (TBD)
                                    changes                        Schedules A,    fully paid      additional         schedules
                                                                   B, D, and R     with            Form 1040          including          7.2
                                                                   and             remittance;     schedules and      Schedule SE;       Form
                                                                   supporting      Form 1040       forms (TBD)        Forms 940 and      1040NR;
                                                                   forms;          with credit                        720 payroll,       Form 1040
                                                                   Form 1040       elect;                             unemployment,      Puerto Rico
                                                                   Schedules C,    Form 4868                          and excise tax     Resident;
Tax Return Types




                                                                   F, and E        with                               returns for        Form 1040
                                                                   without an      remittance;                        Form 1040          Self-
                                                                   EIN and         Form 4868                          self-employed      Employed;
                                                                   supporting      with no                            filers;            Form 1040
                                                                   forms           remittance;                        additional         Departing
                                                                   including       additional                         Form 1040          Alien; foreign
                                                                   Schedule SE;    Form 1040                          schedules and      address;
                                                                   limited name    schedules and                      forms (TBD);       additional
                                                                   change on       forms (TBD);                       delinquent         Form 1040
                                                                   return          Form                               returns            schedules and
                                                                                   1040-ES;                                              forms (TBD)
                                                                                   Form 1040-V;
                                                                                   Form 1040X;
                                                                                   Form 1040A
                                                                                   Schedule 2;
                                                                                   Form 1040
                                                                                   Schedule
                                                                                   EITC and
                                                                                   supporting
                                                                                   forms
                   Single           Single         2.1             3.1             4.1             5.1                6.1                7.1
                   (never           (never         Single,         Single,         Single,         Single, Married    Single, Married    Single,
Filing Status




                   married); no     married); no   Married         Married         Married         (joint), Head of   (joint), Head of   Married
                   dependents       dependents     (joint), Head   (joint), Head   (joint), Head   Household,         Household,         (joint), Head
                                                   of Household,   of Household,   of Household,   Married            Married            of Household,
                                                   Married         Married         Married         (separate),        (separate),        Married
                                                   (separate)      (separate),     (separate),     Surviving          Surviving          (separate),
                                                                   Surviving       Surviving       Spouse             Spouse             Surviving
                                                                   Spouse          Spouse                                                Spouse




                                                                                                                                 Page 20
                                                     Focusing Management Efforts on
                                           Long-Term Project Needs Will Help Development of the
                                                  Customer Account Data Engine Project


                              2004             2005           2006           2007             2008            2009             2010          2011/2012
                          RELEASE          RELEASE        RELEASE        RELEASE          RELEASE         RELEASE          RELEASE          RELEASE
January                     1.1               1.2           1.3.2          2.2              3.2             4.2              5.2               6.2
and                                          1.3.1           2.1           3.1              4.1             5.1              6.1             7.1/7.2
June
                          Refund or        Refund or      Refund or      2.2              3.2             No open          Power of         All accounts
                          even-balance     even-balance   even-balance   Married once;    No open         account issues   Attorney;        not included
                          returns; No      returns; no    returns; no    No open          account         EITC             Centralized      in previous
Account Characteristics




                          account issues   dependents;    dependents;    account issues   issues.                          Authorization    releases
                          (open or         No account     No account     3.1              EITC                             File;
                          closed)          issues (open   issues (open   No open          4.1                              No open
                                           or closed)     or closed)     account issues   Power of                         account issues
                                                                         EITC             Attorney;
                                                                                          Centralized
                                                                                          Authorization
                                                                                          File;
                                                                                          no open
                                                                                          account
                                                                                          issues; EITC
                          Not              Actual         1.3.2          2.2              3.2             4.2              5.2              6.2
Number of Returns




                          applicable       1,423,517      4 million      33 million       50 Million      70 Million       90 Million       110 Million
   Estimated




                                                                                                                                            7.2
                                                                                                                                            135 Million




Source: Customer Relationship Management Executive Steering Committee, approved October 18, 2005.

Form 1040-ES – Estimated Tax for Individuals.
Form 1040NR – U.S. Nonresident Alien Income Tax Return.
Form 1040-NR-EZ U.S. Income Tax Return for Certain Nonresident Aliens With No
Dependents.
Form 1040-V – Payment Voucher.
Form 1040X – Amended U.S. Individual Income Tax Return.
Form 6251 – Alternative Minimum Tax–Individuals.




                                                                                                                                        Page 21
                                      Focusing Management Efforts on
                            Long-Term Project Needs Will Help Development of the
                                   Customer Account Data Engine Project



                                                                                                   Appendix V

           Customer Account Data Engine Project Costs

                    Table 1: Customer Account Data Engine (CADE) Project
                             Task Order Costs Through Release 1.3
    Task Order Number                        Period of Performance                                Cost
             0019              1999 – 2000 (specific dates not available)                                $2,166,234
             0037              April 24, 2000 – August 31, 2000                                          $3,011,000
             0054              September 1, 2000 – April 30, 2001                                     $13,971,165
             0069              June 1, 2001 – August 31, 2001                                            $5,700,000
             0071              May 1, 2001 – June 30, 2001                                               $1,534,012
             0073              September 1, 2001 – August 31, 2004                                    $60,458,154
             0123              October 1, 2004 – December 31, 2006                                    $47,327,641
                                                                                              Total $134,168,206
Source: CADE contract task orders from the Internal Revenue Service Procurement Office.

       Table 2: Estimated CADE Project Costs and Schedule Through Release 1.3
              Release 1 Project Phase                    Completed/Scheduled                  Cost/Estimate
Milestone 1                                           December 31, 1999                                  $5,116,000
Milestones 2 and 3                                    June 30, 2001                                   $19,267,000
Milestone 4                                           July 30, 2004                                   $58,838,000
2003/2004 Filing Seasons1 (Release 1.1)2              August 5, 2004                                  $24,550,000
2005 Filing Season (Release 1.2)                      December 31, 2004                               $23,403,000
Milestone 5                                           June 30, 2005                                   $17,450,000
2006 Filing Season (Release 1.3)                      December 31, 2005                               $28,300,000
                                                                                              Total $176,924,000

Source: Business Systems Modernization (BSM) Expenditure Plans for 2004, 2005 and 2006.




1
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
    A release is a specific edition of software.
                                                                                                             Page 22
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



              Table 3: CADE Project Cost and Schedule Variance Summary
    Release          Milestone             Cost            Cost Variance               Schedule      Schedule
                                          Variance          Percentage                 Variance      Variance
                                                                                     (in months)   (Percentage)
      1            Operations and        $7,510,000             43%                      0             0%
                   Maintenance3
      1.2               2005               $10,000               0%                      0             0%
                   Filing Season4
     1.3.1       2006 Filing Season           $0                  0%                     2            20%
     1.3.2              2006                  $0                 0%                      0             0%
                   Filing Season5
      2                  4a                                            In Progress

 Program               2005              $1,935,000             24%                    Not           Not
Management         Calendar Year                                                     Applicable    Applicable
                   Level of Effort
                       2006                                            In Progress
                   Calendar Year
                   Level of Effort

Source: BSM Expenditure Plans for 2004, 2005 and 2006 and the IRS.



3
  CADE Release 1 (Operations and Maintenance) was initially referred to as “CADE Release 1, Milestone 5” in the
BSM Expenditure Plan.
4
  CADE Release 1.2 was initially referred to as “CADE Filing Season 2005” in the BSM Expenditure Plan. The
IRS did not provide cost and schedule data for this release in subsequent Expenditure Plans.
5
  CADE Release 1.3.1 and 1.3.2 were initially combined and referred to as “CADE Filing Season 2006” in the
BSM Expenditure Plan.




                                                                                                       Page 23
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



                                                                                             Appendix VI

    Business Systems Modernization Challenge Issues
     Relating to the Customer Account Data Engine

    The Business Systems Modernization (BSM) Challenges Plan Close-Out Report, dated
    May 1, 2004, provided plans to improve future Customer Account Data Engine (CADE)
    project development. The CADE-related BSM Challenge Issues and related close-out plans
    included:
    − Make business owner and program director accountable for project
      success.
        The Business Systems Modernization Office (BSMO) restructured its management and
        governance structure to institutionalize the roles of Business Leader1 (replacing Business
        Owner), Business Requirements Director,2 Program Director, and Program Manager.
    − Implement short-duration, discrete “Tiger Teams” in the CADE, Integrated
      Financial System,3 and e-Services4 projects.
        The CADE Tiger Team5 conducted a comprehensive analysis of the CADE project and
        provided recommendations in a report about managing defects, contracts, and program
        execution.




1
  The Business Leader engages with the modernization technology team to help determine how to best apply
technology to improve service to taxpayers, support enforcement activities, and improve compliance.
2
  The Business Requirements Director is the point of accountability on behalf of the Business Leader for ensuring
business requirements and process engineering are the central focus in making project decisions.
3
  The Integrated Financial System project replaces the Internal Revenue Service’s (IRS) current inventory of
antiquated financial systems with a single integrated system that connects the agency’s accounting, performance,
budgeting, and procurement functions.
4
  The e-Services project modernizes the way taxpayers transact and communicate with the IRS by creating and
marketing easy-to-use electronic products and services.
5
  Tiger teams and subteams consisted of highly experienced professionals from the IRS, Computer Sciences
Corporation, IBM, etc. The teams collaborated on findings and recommendations in many areas (e.g., architecture
and system design, building and design of code, testing and deployment, and documentation and performance-tuning
for the CADE).
                                                                                                       Page 24
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project



    − Designate business architects for all projects to support business insight
      required throughout the project life.
        The role of the Business Architects (title changed to Business Requirements Director –
        see footnote 2) and other program/project management positions were defined as part of
        the larger governance structure reorganization.
    − Assign business owners and architects to validate business unit
      participation and accountability in projects.
        Roles of the Business Leader, the Business Requirements Director, the BSM Program
        Director, the Acquisition Project Manager,6 and the Information Technology Services
        Coordinator have been defined and socialized among the BSMO, the Modernization and
        Information Technology Services organization, and the business (operating
        division/function) executives.
    − Align critical engineering talent to most critical projects.
        Key engineering talent from MITRE,7 the PRIME contractor,8 and other appropriate
        resources were identified and hired.
    − Identify key productivity and quality metrics across the life cycle based on
      industry standards.
        A joint Internal Revenue Service (IRS), PRIME contractor, and MITRE Tiger Team
        developed the PRIME Enterprise Life Cycle (ELC) – the key productivity and quality
        measures roll-out plan for effective implementation and institutionalization associated
        with ELC Milestone 4.9
    − Move acceptance testing to be earlier in the life cycle.
        The PRIME contractor’s testing and deployment office collaborated with the IRS to
        develop a combined Systems Integration Test/Systems Acceptance Test10 for
        CADE Release 1.1.


6
  This position, under the BSM Program Director, is responsible for successful day-to-day project management and
execution, working with the Business Requirements Director and Contractor Project Manager to ensure system
requirements are aligned with business requirements.
7
  MITRE is the IRS’ modernization strategic support contractor.
8
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
9
  See Appendix VIII for an overview of the ELC and its various milestones.
10
   Systems integration testing ensures all system components (hardware and software) are working correctly and
collectively with other related or dependant systems. Systems acceptance testing determines whether a system
meets user and contract requirements and objectives.
                                                                                                        Page 25
                                    Focusing Management Efforts on
                          Long-Term Project Needs Will Help Development of the
                                 Customer Account Data Engine Project



     − Establish independent architecture and engineering team of IRS and
       contractor business architects and system engineers.
         The IRS and the PRIME contractor formed the Joint Engineering Team11 consisting of
         business architects and system engineers. The Joint Engineering Team recommended the
         formation of the CADE Data Architecture and Analysis Study to establish a data
         architecture foundation that would enable the CADE project to adopt a flexible release
         strategy for current and future CADE releases
     − Clearly define business requirements and tightly manage them to control
       scope.
         The BSMO worked with the PRIME contractor and representatives from various process
         teams to define Milestone 4A12 exit criteria, obtain buy-in from key stakeholders, and
         redefine ELC requirements and milestone exit criteria.
     − Identify “blockers” on current contracting actions.
         Blockers were identified on October 24, 2003, which centered on business integration,
         systems integration, and the PRIME contractor’s program management office activities.




11
  The Joint Engineering Team was formed as a means to organize the senior engineers assigned to the CADE.
12
  The ELC will establish a new milestone called “Milestone 4A.” In this Milestone, time and effort will be devoted
to ensure business requirements are fully developed and the technical infrastructure is fully detailed. This detail will
significantly increase the opportunities for the use of fixed-price contracts.




                                                                                                              Page 26
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



                                                                                           Appendix VII

    Customer Account Data Engine Corrective Actions
              to Prior Recommendations

Table 1 presents the findings reported by the Treasury Inspector General for Tax Administration
(TIGTA) and the Internal Revenue Service’s (IRS) subsequent planned corrective actions and
implementation status. The TIGTA report titles are presented below Table 1.
      Table 1: Status of TIGTA Report Findings and Corrective Actions Related
                to the Customer Account Data Engine (CADE) Project

     Report         Finding and Recommendation                         Corrective Action                 Status
    Number
    and Date

2003-20-018       The Pilot Plan Needs to Include             The IRS monitors Information              Closed
                  Adequate Defect Reporting                   Technology Asset Management
    11/2002       Procedures.                                 System (ITAMS)2 use and
                                                              requires the PRIME contractor to
                  To ensure the defect reporting              develop procedures to include
                  databases provide reliable                  defect report resolution. Under
                  information for the pilot defect            the draft procedures, the PRIME
                  reports, the Business Systems               contractor initiates the
                  Modernization Office (BSMO)                 recommendation to close in the
                  should require the PRIME                    ITAMS and the IRS is
                  contractor1 to provide written              responsible for the final closure.
                  procedures directing that the IRS           Those procedures are currently
                  approve defect report resolution            under review. Approval and
                  actions prior to defect report              distribution of the procedures is
                  closure.                                    planned for November 30, 2002.




1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The ITAMS delivers an inventory system that enables tracking, reporting, and management of information
technology assets.
                                                                                                       Page 27
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project



     Report          Finding and Recommendation                          Corrective Action                    Status
    Number
    and Date

2003-20-018        The Pilot Plan Needs to Include              The PRIME contractor has                      Closed
                   Adequate Defect Reporting                    drafted procedures that document
    11/2002        Procedures.                                  the process the IRS will use when
                                                                interfacing defect reporting
                   To ensure the defect reporting               information between the
                   databases provide reliable                   ClearQuest® database and the
                   information for the pilot defect             ITAMS defect tracking tools.
                   reports, the BSMO should require             These procedures contain specific
                   the PRIME contractor to provide              information on the reconciliation
                   detailed procedures for reconciling          of these reports. The procedures
                   defect reports in the ClearQuest®3           are currently under review and
                   database and the ITAMS.                      are scheduled to be approved and
                                                                distributed by November 30,
                                                                2002.

2003-20-089        File and Job Names Need to Be                The BSMO agreed with the           Closed
                   Compatible With Current Tax                  recommendation and is
    3/2003         Processing Systems.                          developing naming standards.
                                                                Key naming standards will be
                   The Deputy Commissioner for                  published and available for use by
                   Modernization and Chief                      the current processing and
                   Information Officer needs to ensure          modernization environments by
                   development of job and file naming           August 1, 2003.
                   standards is expeditiously
                   completed by the IRS Enterprise
                   Operations Services organization.
                   The BSMO needs to work with the
                   PRIME contractor to ensure these
                   naming standards are used in the
                   development of future CADE
                   releases and all other IRS
                   modernization projects.



3
  ClearQuest® is a defect and change tracking system that captures and manages all types of change requests
throughout the development life cycle, helping organizations quickly deliver higher quality software.
                                                                                                          Page 28
                             Focusing Management Efforts on
                   Long-Term Project Needs Will Help Development of the
                          Customer Account Data Engine Project



  Report       Finding and Recommendation                   Corrective Action             Status
 Number
 and Date

2003-20-089   The Balancing, Control, and            The BSMO agreed with the             Closed
              Reconciliation Process Needs to Be     recommendation and will
  3/2003      Completed and Tested Prior to          continue to monitor the actions
              Release 1.                             taken in balancing, control, and
                                                     reconciliation in preparation for
              The BSMO should monitor the            CADE Release 1 deployment.
              completion of the remaining work
              contained in the detailed schedule
              to assess the progress in completing
              the balancing, control, and
              reconciliation process development.

2003-20-089   Improvements to the Computer           The BSMO agreed with the             Closed
              Handbook Will Help to Ensure an        recommendation and will work
  3/2003      Effective Release 1 Deployment.        with the PRIME contractor to
                                                     incorporate minimum
              The BSMO should work with the          documentation standards and the
              PRIME contractor to incorporate        Documentation Task Force’s
              minimum documentation standards        findings into the CADE.
              and the Documentation Task
              Force’s findings into CADE
              Release 1 and future releases.




                                                                                         Page 29
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project



     Report          Finding and Recommendation                           Corrective Action                 Status
    Number
    and Date

2003-20-089        Improvements to the Computer         The BSMO is working with the                        Closed
                   Handbook Will Help to Ensure an      PRIME contractor and
    3/2003         Effective Release 1 Deployment.      Information Technology Service
                                                        organization as a task group to
                   The BSMO should work with the        define standard deliverables that
                   PRIME contractor to incorporate      will facilitate improved transition
                   these documentation standards into of modernization systems into the
                   the Enterprise Life Cycle.4          current processing environment.
                   Incorporating standards into the     The computer operations
                   Enterprise Life Cycle will provide   handbook subtask group is
                   guidance in developing               working to define gaps and
                   documentation for current and        requirements for standard
                   future CADE releases, as well as all deliverables needed by the
                   other IRS modernization projects.    Information Technology Service
                                                        organization for operations and
                                                        maintenance support.

2003-20-089        The Balancing, Control, and                   The BSMO will continue to work Closed
                   Reconciliation Process Needs to Be            with the PRIME contractor to
    3/2003         Completed and Tested Prior to                 ensure the remaining work for the
                   Release 1.                                    balancing, control, and
                                                                 reconciliation process for
                   The BSMO should require the                   Release 1 is tested and completed.
                   PRIME contractor to complete the
                   remaining work on the balancing,
                   control, and reconciliation process
                   and fully test these processes to
                   ensure they meet the design
                   requirements




4
 The Enterprise Life Cycle establishes a set of repeatable processes and a system of reviews, checkpoints, and
milestones that reduce the risks of systems development and ensure alignment with the overall business strategy.
See Appendix VIII for an overview of the Enterprise Life Cycle.
                                                                                                          Page 30
                                   Focusing Management Efforts on
                         Long-Term Project Needs Will Help Development of the
                                Customer Account Data Engine Project



     Report          Finding and Recommendation                           Corrective Action                  Status
    Number
    and Date

2005-20-005        Significant Software Changes Were             The BSMO is planning a                     Closed
                   Added to Customer Account Data                semiannual release of the CADE
    11/2004        Engine Release 1.1.                           in July5 and January. The July
                                                                 delivery will involve higher risk,
                   The Chief Information Officer                 more complex functionality, and
                   should direct the BSMO to work                the January delivery will include
                   with the PRIME contractor to                  filing season6 changes combined
                   ensure future project development             with additional changes as
                   changes undergo appropriate                   capacity permits. Since the
                   performance testing, simulating               returns from earlier in the filing
                   high-volume processing, before                season will be available for
                   deploying the system.                         testing, the IRS can conduct
                                                                 performance testing on the July
                                                                 release using the highest volume
                                                                 periods. The IRS will determine
                                                                 whether to conduct additional
                                                                 performance testing on the
                                                                 January release based on the
                                                                 likelihood of the changes
                                                                 affecting performance.




5
  The BSMO subsequently designated June 30 as its target for deploying the first subrelease of biannual CADE
Releases.
6
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                          Page 31
                                     Focusing Management Efforts on
                           Long-Term Project Needs Will Help Development of the
                                  Customer Account Data Engine Project



      Report           Finding and Recommendation                         Corrective Action         Status
     Number
     and Date

2005-20-005          The Customer Account Data                      Over the last year, the BSMO has Open
                     Engine Program Does Not Have a                 been actively searching for
      11/2004        Dedicated System Architect.                    qualified engineering resources.
                                                                    While the BSMO has had success
                     The Chief Information Officer                  recruiting a few candidates (some
                     should ensure the BSMO makes the               of which are dedicated to the
                     system architecture resources being            CADE), it is very difficult to
                     acquired available to the CADE                 attract qualified individuals to
                     program on a full-time basis.                  work for the Federal Government.
                                                                    The BSMO’s recruiting efforts
                                                                    will continue. In the interim,
                                                                    MITRE7 employees and members
                                                                    from the Enterprise Architecture
                                                                    team are providing CADE
                                                                    engineering and architecture
                                                                    support. The PRIME contractor
                                                                    is continuing to provide full-time
                                                                    architecture support to the CADE
                                                                    project.




7
    MITRE is the IRS’ modernization strategic support contractor.
                                                                                                  Page 32
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



     Report         Finding and Recommendation                        Corrective Action                   Status
    Number
    and Date

2005-20-005       Disaster Recovery Capabilities             Disaster recovery for the CADE               Open
                  Were Not Tested Prior to Customer          needs to be periodically tested.
    11/2004       Account Data Engine Release 1.1            However, it should be part of an
                  Implementation.                            enterprise disaster recovery and
                                                             testing strategy for mainframe
                  To ensure the ability of the IRS to        computing operations and
                  restore the CADE after a disaster          databases at the Enterprise
                  with the least disruption to the IRS       Computing Center.8 The IRS
                  mission, the Chief Information             generally deploys major
                  Officer needs to ensure disaster           functionality enhancements for
                  recovery capabilities for future           future CADE releases in July and
                  releases of the CADE are fully             deploys filing season changes and
                  tested prior to implementation.            smaller system enhancements as
                                                             part of CADE filing season
                                                             releases in January. The Systems
                                                             Integration Enterprise
                                                             Architecture Office will work
                                                             with the Enterprise Operations
                                                             Service organization and the
                                                             Enterprise Computing Center to
                                                             ensure CADE disaster recovery
                                                             testing is included in the annual
                                                             disaster recovery testing
                                                             performed each fall. Since most
                                                             new functionality will be
                                                             deployed in the July release, the
                                                             fall testing would be timely prior
                                                             to the start of the new filing
                                                             season when the IRS will be
                                                             encountering high volumes.




8
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                     Page 33
                             Focusing Management Efforts on
                   Long-Term Project Needs Will Help Development of the
                          Customer Account Data Engine Project



  Report       Finding and Recommendation                  Corrective Action             Status
 Number
 and Date

2005-20-005   Improvements to the Customer          The BSMO made the required           Closed
              Account Data Engine Operator’s        changes to the operational
  11/2004     Guide Need to Be Completed.           documentation for CADE
                                                    Release 1.1; however, the final
              The Chief Information Officer         copy with “no markup” was not
              should direct the BSMO to ensure      available for a few weeks
              pilot and production operational      following initial operation.
              documentation for future CADE         Going forward, the BSMO plans
              releases is reviewed, tested, and     to have full documentation
              approved before both the pilot test   available at implementation.
              and live production are allowed to    There are no plans for additional
              proceed. This review should also      CADE pilots.
              ensure the corrective action to our
              March 2003 report is incorporated
              in this review and the IRS’
              minimum documentation standards
              are completed and met in current
              and future CADE releases.

2005-20-005   Manual Processes Within Customer      Changes will be included in the      Open
              Account Data Engine Release 1.1       January 2005 and July 2005
  11/2004     Need to Be Automated for Future       deliveries addressing the
              Releases.                             specified operational
                                                    inefficiencies.
              The Chief Information Officer
              should direct the BSMO to ensure
              inefficient manual processes are
              automated in future CADE releases.




                                                                                        Page 34
                                      Focusing Management Efforts on
                            Long-Term Project Needs Will Help Development of the
                                   Customer Account Data Engine Project



      Report            Finding and Recommendation                            Corrective Action           Status
     Number
     and Date

2005-20-005           Disaster Recovery Capabilities                The Director, Enterprise              Closed
                      Were Not Tested Prior to Customer             Computing Center, will test the
      11/2004         Account Data Engine Release 1.1               recovery and restoration of key
                      Implementation.                               components of CADE processing
                                                                    to ensure a high confidence level
                      To ensure the ability of the IRS to           in the IRS’ ability to recover the
                      restore the CADE after a disaster             CADE in the event of a disaster.
                      with the least disruption to the IRS          The CADE was part of the annual
                      mission, the Chief Information                Enterprise Computing Center
                      Officer needs to ensure all aspects           Master File9 Disaster Recovery
                      of the CADE disaster recovery                 test. The test was conducted.
                      capabilities are tested during the
                      Annual IRS Disaster Recovery
                      Test.
    Source: TIGTA audit reports and IRS management responses.

    2003-20-018 - Improvements in the Customer Account Data Engine Pilot Plan Need to Be
    Considered to Help Ensure the Pilot’s Success (Reference Number 2003-20-018, dated
    November 2002).
    2003-20-089 - Adhering to Established Development Guidelines Will Help to Ensure the
    Customer Account Data Engine Meets Expectations (Reference Number 2003-20-089, dated
    March 2003).
    2005-20-005 - To Ensure the Customer Account Data Engine’s Success, Prescribed
    Management Practices Need to Be Followed (Reference Number 2005-20-005, dated
    November 2004).




9
    The Master Files are the IRS’ central and official repository of taxpayer information.




                                                                                                         Page 35
                                       Focusing Management Efforts on
                             Long-Term Project Needs Will Help Development of the
                                    Customer Account Data Engine Project



                                                                                   Appendix VIII

                            Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) is the Internal Revenue Service’s (IRS) standard approach to
business change and information systems initiatives. It is a collection of program and project
management best practices designed to manage business change in a successful and repeatable
manner. The ELC addresses large and small projects developed internally and by contractors.
The ELC includes such requirements as:
       •   Development of and conformance to an enterprise architecture.
       •   Improving business processes prior to automation.
       •   Use of prototyping and commercial software, where possible.
       •   Obtaining early benefit by implementing solutions in multiple releases. 1
       •   Financial justification, budgeting, and reporting of project status.
In addition, the ELC improves the IRS’ ability to manage changes to the enterprise; estimate the
cost of changes; and engineer, develop, and maintain systems effectively. Figure 1 provides an
overview of the layers, paths, phases, and milestones (shown as “MS” in Figure 1) within the
ELC Framework.




1
    A release is a specific edition of software.
                                                                                          Page 36
                                                            Focusing Management Efforts on
                                                  Long-Term Project Needs Will Help Development of the
                                                         Customer Account Data Engine Project



                                                                      Figure 1: ELC Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the ELC Framework modified from the ELC Guide.

ELC Layers
The ELC is a framework for organizing and using IRS directives, processes, procedures,
templates, and standards to accomplish business change. It is organized as a set of
6 interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the ELC.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done, but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.


                                                                                                                                                                        Page 37
                                    Focusing Management Efforts on
                          Long-Term Project Needs Will Help Development of the
                                 Customer Account Data Engine Project



    •    The Methodology Layer details how to do the work and specifies a unique set of work
         products to be produced. Specific methodologies are not part of the ELC Framework.
    •    The Specialty Areas Layer provides additional guidance for areas of particular
         importance within the IRS. These areas include Enterprise Integration, Test, and
         Evaluation;2 Business Rules Harvesting3 and Management; Transition Management;4
         Enterprise Architecture; Capital Planning and Investment Control;5 Security and Privacy;
         Requirements Development and Management.

ELC Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
ELC specifies a standard for the work required to produce and operate business change solutions,
there are multiple ways to approach and accomplish the required work. Paths are like alternate
roads, each of which crosses different terrain, but all of which lead to the same destination. The
ELC provides five distinct paths or approaches to developing systems:
    •    The Large Custom Path is for large projects.
    •    The Small Custom Path is for small projects.
    •    The Commercial-Off-the-Shelf Path is a commercial software-based approach.
    •    The Joint Application Development/Rapid Application Development Path is a highly
         accelerated, prototyping-based approach for very small, standalone solutions or solution
         components.
    •    The Iterative Custom Path is a hybrid approach that combines elements of the other
         approaches.

ELC Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS

2
  Enterprise Integration, Test, and Evaluation includes processes for integrating multiple components of a solution
and conducting various types and levels of testing on the solution.
3
  A business rule is a statement that defines or constrains some aspect of the business. Harvesting is a general term
used to broadly describe the entire set of activities involved in gathering, formalizing, analyzing, and validating
business rules for a particular scope.
4
  Transition management helps ensure personnel and organizations are prepared to receive, use, operate, and
maintain the business processes and technology provided by business change solutions.
5
  The Capital Planning Investment and Control process manages a central portfolio of information technology
investments across the IRS.
                                                                                                             Page 38
                                  Focusing Management Efforts on
                        Long-Term Project Needs Will Help Development of the
                               Customer Account Data Engine Project



executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.
                                 Figure 2: ELC Phases and Milestones
                                                      General Nature                       Concluding
              Phase                                       of Work                           Milestone
 Vision and Strategy/              High-level direction setting. This is the only phase
                                                                                               0
 Enterprise Architecture Phase     for enterprise planning projects.
 Project Initiation Phase          Startup of development projects.                            1
 Domain Architecture Phase         Specification of the operating concept, requirements,
                                                                                               2
                                   and structure of the solution.
 Preliminary Design Phase          Preliminary design of all solution components.              3
 Detailed Design Phase             Detailed design of solution components.                    4A
 System Development Phase          Coding, integration, testing, and certification of
                                                                                              4B
                                   solutions.
 System Deployment Phase           Expanding availability of the solution to all target
                                   users. This is usually the last phase for development       5
                                   projects.
 Operations and Maintenance        Ongoing management of operational systems.               System
 Phase                                                                                     Retirement
Source: The ELC Guide.




                                                                                                        Page 39
                Focusing Management Efforts on
      Long-Term Project Needs Will Help Development of the
             Customer Account Data Engine Project



                                                  Appendix IX

Management’s Response to the Draft Report




                                                         Page 40
          Focusing Management Efforts on
Long-Term Project Needs Will Help Development of the
       Customer Account Data Engine Project




                                                   Page 41
          Focusing Management Efforts on
Long-Term Project Needs Will Help Development of the
       Customer Account Data Engine Project




                                                   Page 42
          Focusing Management Efforts on
Long-Term Project Needs Will Help Development of the
       Customer Account Data Engine Project




                                                   Page 43
